Audit of the Outpatient Oncology Clinic Costs at Parkway Regional Medical Center, CIN A-04-00-01223
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Outpatient Oncology Clinic Costs at Parkway Regional Medical Center," (A-04-00-01223)
October 1, 2001
Complete
Text of Report is available in PDF format (560 kb).  Copies can also be obtained by contacting the Office of
Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our audit showed that Parkway did not meet Medicare cost guidelines in two areas:  documenting the reasonable cost
of the management fees, and claiming rental costs not related to patient care.  Parkway did not maintain records to
demonstrate that it carried out its fiduciary responsibilities to ensure costs are reasonable as outlined in the Medicare
cost guidelines.  As a result, we cannot render an opinion as to the reasonableness of the nearly $8.9 million the
Medicare program reimbursed Parkway for the outpatient oncology clinic.  Our audit also showed that Parkway claimed
rental charges on the 1999 Medicare cost report that were not related to patient care.  We estimate Medicare overpaid
Parkway about $52,000 .  We are recommending that Parkway:  (1) strengthen its procedures to ensure that Parkway
record its justifications for future management support service agreements and to have that documentation available for
review; and (2) remove unallowable rental charges from the cost report for the Fiscal Year ending September 30, 1999.